In the Supreme Court of the United States
Patrick S. Crick,
Petitioner,
v.

State of Washington,
Respondent.
On Petition For Writ Of Certiorari
To The Ninth Circuit Court Of Appeals

SUPPLEMENTAL APPENDIX

PATRICK S. CRICK
PETITIONER, PRO SE
734 BERNE LN SE
OLYMPIA, WA 98513
(360)789-6323

RECEIVED
FEB 3 - 2020

‘j

0

INDEX TO THE SUPPLEMENTAL APPENDIX
A. Ninth Circuit Court of Appeals Decision........ 1
B. Washington Division One Order of Dismissal. ...2

i

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PATRICK S. CRICK,
Petitioner-Appellant,

FILED
MAR 29 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
NO. 18-35972

v.

D.C. No. 2:i7-cv-01348-JLR
Western District of Washington,
Seattle

JAMES KEY,

ORDER

Respondent-Appellee.
Before: SILVERMAN AND CALLAHAN, Circuit Judges.
The request for a certificate of appealability (Docket Entry No. 2) is denied
because the underlying 28 U.S.C. § 2254 petition fails to state any federal
constitutional claims debatable among jurists of reason. See 28 U.S.C. § 2253(c)(2)(3); Gonzales v. Thaler, 565 U.S. 134, 140-41 (2012) (“When ... the district court
denies relief on procedural grounds, the petitioner seeking a COA must show both
‘that jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.’”)(quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
Any pending motions are denied as moot.
DENIED.

IN THE COURT OF APPEALS OF THE STATE OF WASHINGON
DIVISION ONE
In the Matter of the Personal
Restraint of
Patrick S. Crick
Petitioner,

No. 75685-1-1
Order of Dismissal

Patrick Crick was convicted by a jury of child molestation in the first degree
following a jury trial in Snohomish County Cause No. 13-1-00590-0 based upon
testimony the he inappropriately touched an eleven year-old friend of the family.
This court upheld Crick’s conviction on appeal. See State v. Crick. No. 71224-1-1.
Crick filed this personal restrain petition seeking relief from his conviction. He
claims the (l) appellate counsel was constitutionally deficient, (2) the State
knowingly presented false evidence, (3) the prosecutor presented inadmissible
evidence and impermissible vouched for the credibility of State witnesses, and (4) he
was deprived of a fair trial due cumulative error. In order to obtain collateral relief
by means of a personal restraint petition, Crick must demonstrate either an error of
constitutional magnitude that gives rise to actual prejudice or a nonconstitutional
error that inherently results in a “complete miscarriage of justice.” Tn re Pers.
Restraint of Cook. 114 Wn.2d 802, 813, 792 P.2d 506 (1990).

No. 75685-1-1-1/2
Crick asserts that appellate counsel was constitutionally deficient because he
filed an untimely motion for reconsideration, which was then denied. Crick
contends he was thus denied his right to appeal.
To prevail on a claim of ineffective assistance of appellate counsel, Crick
must show that appellate counsel failed to raise a meritorious legal issue and that
he was “actually prejudiced by the failure to raise or adequately raise the issue.” In
re Pers. Restraint of Dalluge. 152 Wn.2d 772, 787, 100 P.3d 279 (2004). Crick
exercised his right to appeal. This court reviewed the following issues raised by
counsel: (l) sufficiency of the evidence, (2) jury unanimity, (3) denial of motions for
mistrial, and (4) ineffective assistance of trial counsel. Crick does not contend that
appellate counsel failed to raise a legal issue upon which he would have prevailed.
Even if Crick could establish that filing an untimely motion for
reconsideration amounts to constitutionally deficient performance, he fails to
establish, prejudice.
Crick does not address the standard for granting reconsideration under RAP
12.4 and there is nothing in the record to suggest that such a motion would have
been granted had it been timely filed. As explained, Crick cannot demonstrate that
there is a reasonable likelihood that the outcome would have been different but for
counsel's delay in filing the motion.
Next, Crick contends that the prosecutor committed misconduct with regard
to the testimony of several witnesses who said that the victim did not attend a
family Christmas celebration several months after the alleged touching incident.
Crick contends that the prosecutor either deliberately elicited this false
2

No. 75685-1-1-1/3
testimony or “sat silent,” knowing the statements to be untrue. He also suggests
that the State withheld from the defense photographs proving that the victim was
at a family Christmas gathering in 2011 and providing the evidence to the defense
only after the jury returned its verdict. The record does not support Crick's
argument. There is nothing in the record to support the claim that the State
knowingly presented false testimony. The record indicates that Crick's partner, not
the State, possessed and belatedly provided photographs to defense counsel
purporting to show that the victim and Crick were both present at a family
gathering. The photographs would not have undermined the evidence presented by
the State that the victim did not wish to be around Crick after the incident and did
not willingly return to his home. It does not appear that either of the photographs
were taken at Crick's home, nor were they date-stamped. Crick fails to demonstrate
deficient performance or prejudice.
Crick also contends that some of the prosecutor's closing remarks amounted to
misconduct because he personally vouched for the credibility of State witnesses and
thereby suggested that Crick had the burden to prove that the victim was not
credible. "It is improper for a prosecutor personally to vouch for the credibility of a
witness." State v. Brett. 126 Wn.2d 136, 175, 892 P.2d 29 (1995). Prosecutors,
however, have wide latitude to argue reasonable inferences from the evidence, and
prejudicial error will not be found unless it is clear and unmistakable that counsel
is expressing a personal opinion. Brett. 126 Wn.2d at 175. Here, the prosecutor
made legitimate arguments about credibility that were
3

Additional material
from this filing is
available in the
Clerk's Office.

